TREASURY INSPECTOR GENERAL FOR TAX ADMINISTRATION




                    Opportunities Exist to Improve Manual
                 Interest Calculations on Estate Tax Returns



                                         August 30, 2007

                              Reference Number: 2007-30-163




  This report remains the property of the Treasury Inspector General for Tax Administration (TIGTA) and
   may not be disseminated beyond the Internal Revenue Service without the permission of the TIGTA.

 Redaction Legend:
 1 = Tax Return/Return Information


 Phone Number | 202-927-7037
 Email Address | Bonnie.Heald@tigta.treas.gov
 Web Site      | http://www.tigta.gov
                                                                       DEPARTMENT OF THE TREASURY
                                                                             WASHINGTON, D.C. 20220




        TREASURY INSPECTOR GENERAL
          FOR TAX ADMINISTRATION




                                                                       August 30, 2007


            MEMORANDUM FOR COMMISSIONER, SMALL BUSINESS/SELF-EMPLOYED
                           DIVISION

            FROM:                               Michael R. Phillips
                                                Deputy Inspector General for Audit

            SUBJECT:                            Final Audit Report – Opportunities Exist to Improve Manual Interest
                                                Calculations on Estate Tax Returns (Audit # 200630029)

            This report presents the results of our review of manual interest calculations on estate tax returns.
            The overall objective of this review was to determine whether interest is being calculated
            correctly on estate tax cases that have elected to pay the taxes due in installments or elected an
            extension to file or pay. This audit was conducted as part of our annual audit plan.

            Impact on the Taxpayer
            Because of the complexities involved in administering payment options on estate tax accounts
            involving Internal Revenue Code (I.R.C.) Section 6166 elections,1 Internal Revenue Service
            (IRS) computers are not programmed to assess the interest associated with these accounts. The
            interest must be calculated manually and is subject to human error. If interest amounts owed by
            taxpayers are not calculated accurately, the IRS risks collecting too little or too much money
            from taxpayers whose account balances are calculated in error. Interest had been calculated
            inaccurately on 16 percent of the estate tax cases included in our review.




            1
              A qualifying estate holding an interest in a closely held business with a value exceeding 35 percent of the value of
            the adjusted gross estate may elect under I.R.C. Section 6166 to pay in installments that portion of its Federal estate
            tax attributable to the business.
                    Initiator        Proofreader            Reviewer      Reviewer    Reviewer   Reviewer       Reviewer             Reviewer

Office Symbols
                    IG:A                               IG:A:SBP                        IG:A
   Surname
                   Barneck                              Madsen                       Stephens
     Date
                   8/15/07                              8/15/07                      8/30/07
Form 1937-A (TIGTA) Correspondence Approval and Clearance                                                                  Department of the Treasury
                   Opportunities Exist to Improve Manual Interest Calculations on
                                         Estate Tax Returns




Synopsis
In Calendar Years 2002 and 2003, the processing and administration of estate tax returns was
consolidated from 10 IRS campuses2 to the Cincinnati Campus in Covington, Kentucky. Along
with the consolidation, the IRS implemented several changes that significantly improved the
administration of these accounts. One such change enabled the IRS to systemically compute
interest on all estate tax accounts except those involving I.R.C. Section 6166 elections.
We reviewed a statistically valid sample of 99 estate tax cases3 involving I.R.C. Section 6166
elections for which interest had to be manually computed. Interest on 16 (16 percent) of these
cases had been calculated in error. Ten estates were undercharged $81,677, and 6 estates were
overcharged $3,161.
Of the 16 errors we identified, 9 were made by other IRS campuses prior to the cases being
consolidated in the Cincinnati Campus. These errors were not identified because the Estate and
Gift Operations function at the Cincinnati Campus updates interest for the yearly billing
statements by computing interest from the previous billing, as outlined in Internal Revenue
Manual section 4.25. Although computing interest only from the previous billing date is an
easier process and requires less expertise, it does allow for prior year interest computation errors
to remain undetected.
In addition, quality reviews of the yearly interest assessments on I.R.C. Section 6166 estate tax
cases at the Cincinnati Campus are conducted by the employees’ respective managers. These
reviews are conducted on a sample basis and include all the employees’ work, not just the yearly
interest assessment cases. On average, the reviews consist of about two cases per month for each
employee. Many of the managers reviewing the cases are not experts in calculating interest.
Although the interest assessment cases are subject to some quality review, some interest errors
go undetected because cases are not subject to their own separate review and the employees’
managers may not be the most qualified to determine if an interest computation error has been
made.
Based on the results of our sample, we estimate that as many as 360 of the 3,564 estate tax cases
involving I.R.C. Section 6166 could be undercharged and 216 could be overcharged. Due to the
high variability of our sample results, we are unable to accurately estimate the dollar amounts
associated with these potential error cases.




2
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
3
  See Appendix IV for details of our sample selection.
                                                                                                               2
                Opportunities Exist to Improve Manual Interest Calculations on
                                      Estate Tax Returns




Recommendations
The Commissioner, Small Business/Self-Employed Division, should (1) implement a quality
review process of yearly manual interest calculations on estate tax cases and ensure personnel
assigned to perform these reviews have the skills and expertise to identify whether interest has
been computed correctly and (2) implement a procedure involving periodic manual calculation of
interest on each estate tax return from the due date of the return.

Response
The Commissioner, Small Business/Self-Employed Division, agreed with our first
recommendation and partially agreed with our second recommendation. The Campus
Compliance Services function will establish a quality review process and identify qualified staff
to conduct regular reviews of a sampling of estate tax cases with manual interest computations.
Results of reviews will be evaluated, and strategies will be developed to improve overall quality.
The Commissioner also agreed to review the interest computations on I.R.C. Section 6166
installment cases every 3 years to 5 years. The initial review will check the calculations from the
due date of the estate tax return. Subsequent reviews, however, will review computations made
since the previous review rather than involving recomputation of the initial calculation from the
due date of the estate tax return. Management’s complete response to the draft report is included
as Appendix V.

Office of Audit Comment
Although IRS management did not fully agree with our recommendation to implement a
procedure requiring interest to be calculated from the due date of the return rather than from the
previous billing date each time manual interest calculations are reviewed, we considered their
alternative corrective action and found it to be satisfactory.
Please contact me at (202) 622-6510 if you have questions or Daniel R. Devlin, Assistant
Inspector General for Audit (Small Business and Corporate Programs), at (202) 622-5894.




                                                                                                     3
                      Opportunities Exist to Improve Manual Interest Calculations on
                                            Estate Tax Returns




                                             Table of Contents

Background ..........................................................................................................Page 1

Results of Review ...............................................................................................Page 3
          Notable Improvements to the Processing of Estate Tax Returns
          Have Been Made...........................................................................................Page 3
          Manual Interest Calculations on Some Estate Tax Cases Are Not
          Always Accurate...........................................................................................Page 3
                    Recommendations 1 and 2: ......................................................... Page 5


Appendices
          Appendix I – Detailed Objective, Scope, and Methodology ........................Page 6
          Appendix II – Major Contributors to This Report ........................................Page 8
          Appendix III – Report Distribution List .......................................................Page 9
          Appendix IV – Outcome Measures...............................................................Page 10
          Appendix V – Management’s Response to the Draft Report .......................Page 12
         Opportunities Exist to Improve Manual Interest Calculations on
                               Estate Tax Returns




                        Abbreviations

I.R.C.            Internal Revenue Code
IRM               Internal Revenue Manual
IRS               Internal Revenue Service
                   Opportunities Exist to Improve Manual Interest Calculations on
                                         Estate Tax Returns




                                             Background

The Federal estate tax is imposed on the transfer of the property of a decedent at death. A United
States Estate (and Generation-Skipping Transfer) Tax Return (Form 706) must be filed when the
value of the gross estate at the date of death and adjusted taxable gifts exceed the estate tax
applicable exclusion amount in effect under Internal Revenue Code (I.R.C.) Section 2011. This
exclusion amount varies depending on the year of death; it also acts as a threshold for filing an
estate tax return and for estate tax liability. For Tax Years 2006 through 2008, the applicable
exclusion amount is $2 million; for Tax Year 2009, it will be $3.5 million. Estates with property
valued at less than the exclusion amount are not required to file an estate tax return and owe no
estate tax. Accordingly, estate tax returns are required for only about 2 percent of all decedents,
and even fewer estates are actually required to pay estate tax because of allowed deductions.
Unless an extension of time to file is granted, Form 706 is due 9 months after the date of death
and is filed and processed at the Internal Revenue Service (IRS) Cincinnati Campus1 in
Covington, Kentucky.
Form 706 is very complex; it is 40 pages long and includes 20 schedules. Although the Form
has 20 schedules, each schedule does not necessarily need to be completed by each estate. The
methods available to pay the tax due on a Form 706 from an estate with interest in a closely held
business2 add to the complexity of administering these tax accounts. A qualifying estate may
elect under I.R.C. Section 61663 to pay in installments that portion of its Federal estate tax
attributable to the business. Generally, the estate will pay annual installments of only the interest
on the deferred tax for the first 4 years and then will pay interest and principal in 2 or more, but
not to exceed 10, equal annual installments. The interest rate during the deferral period is less
than the interest rate normally charged when the payment of tax is extended.
Because of the complexities involved in administering payment options on I.R.C. Section 6166
estate tax accounts, IRS computers are not programmed to assess the interest associated with
these accounts. Specific codes are input to these accounts to restrict the computers from
automatically computing interest. There were more than 3,500 such cases in inventory at the
Cincinnati Campus as of September 30, 2006. Interest on these cases must be computed



1
  Campuses are the data processing arm of the IRS. The campuses process paper and electronic submissions, correct
errors, and forward data to the Computing Centers for analysis and posting to taxpayer accounts.
2
  Ownership of a trade or business carried on as a proprietorship, partner in a partnership carrying on a trade or
business, or 20 percent or more in voting stock in a corporation carrying on a trade or business at the time of the
decedent’s death.
3
  A qualifying estate holding an interest in a closely held business with a value exceeding 35 percent of the value of
the adjusted gross estate.
                                                                                                              Page 1
                     Opportunities Exist to Improve Manual Interest Calculations on
                                           Estate Tax Returns



manually and assessed annually by an interest specialist.4 These specialists, working in the
Estate and Gift Tax Division, use a software program to notate and recalculate the interest
assessment for each year.
This review included analysis of estate tax cases worked in the Estate and Gift Operations
function of the Small Business/Self-Employed Division Campus Compliance Operations
function in Covington, Kentucky. The review was performed during the period September 2006
through March 2007 and was conducted in accordance with Government Auditing Standards.
Detailed information on our audit objective, scope, and methodology is presented in Appendix I.
Major contributors to the report are listed in Appendix II.




4
    An IRS employee that has had specialized interest computation training.
                                                                                           Page 2
                      Opportunities Exist to Improve Manual Interest Calculations on
                                            Estate Tax Returns




                                        Results of Review

Notable Improvements to the Processing of Estate Tax Returns Have
Been Made
In Calendar Years 2002 and 2003, the processing and administration of estate tax returns was
consolidated from 10 IRS campuses to the Cincinnati Campus. Along with the consolidation, the
IRS implemented several changes that have significantly improved the administration of these
accounts.
The IRS developed computer programs to calculate and assess interest and penalties if the
extension to file date and the extension to pay date are the same. IRS management believes
development of this program reduced the number of estate tax cases that required manual or
restricted interest computations by about 50 percent because the program allows for systemic
calculation of interest owed on all estate tax accounts except those involving elections for annual
installments under I.R.C. Section 6166. This is significant considering the fact that each
restricted interest case requiring a manual computation could require these computations for as
many as 14 years.
The IRS also automated the case inventory and the process for sending annual installment billing
notices for estate tax cases by developing an electronic inventory and a simple interest
calculation tool using Microsoft Access database software. This allowed employees to not only
keep an electronic inventory of cases but also to be told by the computer what annual billings
were coming due. The program also aids the interest specialists in calculating the annual interest
installments and generating the annual billing notices.

Manual Interest Calculations on Some Estate Tax Cases Are Not
Always Accurate
As discussed earlier, interest computations on estate tax cases involving I.R.C. Section 6166
elections are very complex and must be made and assessed annually by an interest specialist.
We reviewed a statistically valid sample of 99 estate tax cases5 involving I.R.C. Section 6166
elections for which interest had to be manually computed. Our sample was taken from the
population of 3,564 of these cases in inventory as of September 30, 2006. From our analysis, we
determined interest on 16 cases (16 percent) had been calculated in error.
Inherent in the IRS’ mission to apply the tax law with integrity and fairness to all is the concept
to collect the proper amount from each taxpayer. The Internal Revenue Manual (IRM) contains

5
    See Appendix IV for details of our sample selection.
                                                                                             Page 3
                Opportunities Exist to Improve Manual Interest Calculations on
                                      Estate Tax Returns



Recommendations
Recommendation 1: The Commissioner, Small Business/Self-Employed Division, should
implement a quality review process of yearly manual interest calculations on estate tax cases and
ensure personnel assigned to perform these reviews have the skills and expertise to identify
whether interest has been computed correctly.
       Management’s Response: IRS management agreed with this recommendation. The
       Campus Compliance Services function will establish a quality review process and
       identify qualified staff to conduct regular reviews of a sampling of estate tax cases with
       manual interest computations. Results of reviews will be evaluated, and strategies will be
       developed to improve overall quality.
Recommendation 2: The Commissioner, Small Business/Self-Employed Division, should
implement a procedure requiring interest to be calculated from the due date of the return rather
than from the previous billing date on each estate tax return. This could be done on a periodic
basis every 3 years to 5 years, based on available resources, but should be done at least 3 times
over the 14-year installment period to help ensure interest has been correctly assessed.
       Management’s Response: IRS management partially agreed with this
       recommendation. The Commissioner, Small Business/Self-Employed Division, agreed to
       review the interest computations on I.R.C. Section 6166 installment cases every 3 years
       to 5 years. The initial review will check the calculations from the due date of the estate
       tax return. Subsequent reviews, however, will check computations made since the
       previous review rather than involving recomputation of the initial calculation from the
       due date of the estate tax return.
       Office of Audit Comment: Although IRS management did not fully agree with our
       recommendation to implement a procedure requiring interest to be calculated from the
       due date of the return rather than from the previous billing date each time manual interest
       calculations are reviewed, we considered their alternative corrective action and found it
       to be satisfactory.




                                                                                            Page 5
                   Opportunities Exist to Improve Manual Interest Calculations on
                                         Estate Tax Returns



                                                                                                Appendix I

         Detailed Objective, Scope, and Methodology

Our overall objective was to determine whether interest is being calculated correctly on estate tax
cases that have elected to pay the taxes due in installments or elected an extension to file or pay.
To accomplish our objective, we:
I.      Had the Treasury Inspector General for Tax Administration Information Technology unit
        develop a computer program to select estate tax accounts currently on the Master File1
        that had a restricted interest assessment2 during Fiscal Year 2006. From the population,
        we determined the number of accounts with restricted interest assessments and the
        amount of restricted interest assessed.
        A. Established the reliability of the data by reviewing a random sample of 36 cases
           obtained from the Master File extract and verifying the data received against data on
           the Integrated Data Retrieval System.3
        B. From the computer extract, determined the number of accounts with a manual interest
           assessment/reversal and the dollar amount of manual interest assessed.
II.     Determined if manually assessed interest amounts on estate tax cases in deferred payment
        or filing status are being computed correctly.
        A. From the computer extract in Step I., selected a statistical random sample of
           100 accounts in deferred payment status. We selected a statistical random sample so
           the error rate and amounts could be projected to the population of 3,564 modules that
           had a restricted interest amount assessed in Fiscal Year 2006. Our sample size was
           based on a confidence level of 95 percent, an expected error rate of 20 percent, and a
           precision factor of +8 percent. Because of difficulties obtaining pertinent data for 1
           of the cases in our sample, we reviewed only 99 cases.4
        B. Reviewed the software program, Inter-Est, the IRS uses to calculate interest. We
           analyzed the program to determine its effectiveness and the accuracy of its rates and
           provisions.

1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  An assessment of interest to a tax account that can not be systemically computed and must be manually computed
and posted.
3
  IRS computer system capable of retrieving or updating stored information; it works in conjunction with a
taxpayer’s account records.
4
  Our sample of 99 cases was still statistically valid for this population.
                                                                                                         Page 6
               Opportunities Exist to Improve Manual Interest Calculations on
                                     Estate Tax Returns



       C. Reviewed the sample cases and recalculated the interest to determine if the interest
          was properly computed on the accounts.
III.   Performed a risk assessment to identify any internal control weaknesses that needed to be
       included in our audit tests. We determined quality controls and IRM instructions needed
       to be strengthened and developed those issues during our audit.




                                                                                          Page 7
               Opportunities Exist to Improve Manual Interest Calculations on
                                     Estate Tax Returns



                                                                               Appendix II

                 Major Contributors to This Report

Daniel R. Devlin, Assistant Inspector General for Audit (Small Business and Corporate
Programs)
Kyle R. Andersen, Director
Larry Madsen, Audit Manager
Douglas C. Barneck, Lead Auditor
Bill R. Russell, Auditor
James E. Adkisson, Information Technology Specialist




                                                                                        Page 8
              Opportunities Exist to Improve Manual Interest Calculations on
                                    Estate Tax Returns



                                                                          Appendix III

                        Report Distribution List

Acting Commissioner C
Office of the Commissioner – Attn: Acting Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Small Business/Self-Employed Division SE:S
Director, Campus Compliance Services SE:E:CCS
Director, Specialty Programs SE:S:SP
Director, Campus Compliance Operations, Cincinnati SE:S:CCS:CCO:CIN
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Internal Control OS:CFO:CPIC:IC
Audit Liaison: Commissioner, Small Business/Self-Employed Division SE:S




                                                                                 Page 9
                   Opportunities Exist to Improve Manual Interest Calculations on
                                         Estate Tax Returns



                                                                                                 Appendix IV

                                     Outcome Measures

This appendix presents detailed information on the measurable impact that our recommended
corrective actions will have on tax administration. These benefits will be incorporated into our
Semiannual Report to Congress.

Type and Value of Outcome Measure:
Increased Revenue/Revenue Protection – Actual; $81,677 in undercharged interest on
10 taxpayer accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
The Treasury Inspector General for Tax Administration Information Technology unit provided a
database containing all 3,564 estate tax accounts that were in installment status (Master File1
Status 14) and had had a restricted interest amount (Transaction Code 340) or a restricted interest
reversal (Transaction Code 341) posted to the account during Fiscal Year 2006. We selected a
statistically valid random sample from this population. Our target sample size was 94 cases. We
selected 100 cases to ensure we had enough cases to review and completed review of 99 cases.
Our sample size was based on a confidence level of 95 percent, an expected error rate of
20 percent, and a precision factor of +8 percent. The sample was chosen based on random
selection. Upon selecting our sample, we obtained the source documentation for each of the
estate tax cases and reviewed the information to determine if the interest had been assessed
accurately from the time the case was established on the Master File.
We determined 102 (10.10 percent) of the 99 cases reviewed had errors that caused the interest to
be undercharged by a total of $81,677.




1
  The IRS database that stores various types of taxpayer account information. This database includes individual,
business, and employee plans and exempt organizations data.
2
  There were 2 additional error cases on which interest was undercharged, but the interest difference was less than
$25 and considered to be de minimis for our purposes.
                                                                                                            Page 10
                   Opportunities Exist to Improve Manual Interest Calculations on
                                         Estate Tax Returns



Type and Value of Outcome Measure:
Taxpayer Rights and Entitlements – Actual; $3,161 in overcharged interest on 6 taxpayer
accounts (see page 3).

Methodology Used to Measure the Reported Benefit:
Using the sample of 99 cases referred to above, we determined 63 (6.06 percent) of the 99 cases
reviewed had errors that caused the interest to be overcharged by a total of $3,161.




3
 There were 2 additional error cases for which interest was overcharged, but the interest difference was less than
$25 and considered to be de minimis for our purposes.
                                                                                                            Page 11
    Opportunities Exist to Improve Manual Interest Calculations on
                          Estate Tax Returns



                                                      Appendix V

Management’s Response to the Draft Report




                                                             Page 12
Opportunities Exist to Improve Manual Interest Calculations on
                      Estate Tax Returns




                                                         Page 13
Opportunities Exist to Improve Manual Interest Calculations on
                      Estate Tax Returns




                                                         Page 14
